Gupta / Wessler
Via Electronic Filing

Issues & Appeals

October 7, 2021

Danny Bickell
Deputy Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 21-270, BNSF Railway Company v. Robert Dannels

Dear Mr. Bickell:
I am counsel of record for the respondent Robert Dannels. The respondents hereby
waive their right to file a response to the petition for a writ of certiorari in the above-referenced
case, unless one is requested by the Court.
Thank you for your attention to this matter.
Sincerely,

Deepak Gupta
cc:

Counsel of Record

Gupta Wessler PLLC
2001 K Street, NW, Suite 850 North, Washington, DC 20006
P 202 888 1741 F 202 888 7792
guptawessler.com

